WAIVE

Supreme Court, U.S.
FILED

7 AUG 0 9 2021
SUPREME COURT OF THE UNITED STA

ESFICE OF THE CLERK

No.
Michael Ray Orr

The State of Texas
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by

the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

0

Mr. Jacob Putman, Smith County Criminal District Attorney

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:
(Type or print) Name Michael J. West
Mr.

Ms.

0 Mrs.

Firm

Smith County Criminal District Attorney's Office

Address

100 N. Broadway, 4th Fl.

City & State

Tyler, Texas

Phone

903-590-1720

0 Miss

Zip 75702
Email mwest@smith-county.com

REEIVED
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is requirMu 1
Ms. Amy Blalock, Attorney for Petitioner
CC:

2021

OFFICE OF THE CLERI
SUPREME COURT, U.S

Office of the Smith County Criminal District Attorney

Jacob Putman
DISTRICT ATTORNEY

August 9, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Michael Ray Orr v. State of Texas - Writ of Certiorari.

Mr. Harris,
Please find enclosed a waiver for the filing of a response to the above-styled
writ. I received the writ last Thursday, but I was unable to find a docket number on
your website this morning.
Thank you,

Michael West
Asst. Criminal District Attorney
Bar I.D. No. 21203300
100 N. Broadway, 4th Fl.
Tyler, Texas 75702
(903) 590-1720
(903) 590-•1719
mwest@smith-county.com

RECEIVED
AUG 1 7 2021
Trig

CLERK
OFFICE OF
,SUPREME COURT, U.S.

